August 3, 2010

TIMOTHY C. HANEY
VICE PRESIDENT, CAPITAL METRO OPERATIONS

SUBJECT:      Audit Report – Charlottesville Processing and Distribution Facility
              Consolidation (Report Number NO-AR-10-008)

This report presents the results of our audit of the consolidation of Charlottesville, VA
Processing and Distribution Facility (P&DF) mail processing operations into the
Richmond, VA Processing and Distribution Center (P&DC) (Project Number
10XG036NO000). The report responds to a Congressional request received March 10,
2010. Our objectives were to assess the operational impacts of the proposed
consolidation and determine whether the Postal Service followed established Area Mail
Processing (AMP) policies and guidelines. The audit addresses operational risk. See
Appendix A for additional information about this audit.

An AMP is the consolidation of all originating and/or destinating mail from one or more
facilities into other processing facilities to improve operational efficiency and/or service.
On June 1, 2010, during our audit, management implemented the Charlottesville AMP
and closed the building.

             Illustration 1: The former Charlottesville Processing and Distribution Facility
Charlottesville Processing and Distribution                                    NO-AR-10-008
 Facility Consolidation



Conclusion

There was a valid business case for consolidating mail processing operations from the
Charlottesville P&DF into the Richmond P&DC. The Postal Service could save
approximately $6.5 million annually as a result of this consolidation. Further, the Postal
Service followed established AMP policies and guidelines. Our analysis showed:

       The consolidation should increase efficiency.

       The Richmond P&DC has sufficient capacity to process all of the Charlottesville
        P&DF mail volume.

       No full-time employee will lose their job.

       Service standards will improve.

       Estimates used for the AMP worksheets were reasonable.
Because our findings support the consolidation, we are not making any
recommendations. Management agreed with the report but chose not to comment
because there were no recommendations. See Appendix B for our detailed analysis of
this topic.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.
    E-Signed by James Ballard
 VERIFY authenticity with ApproveIt




for
Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    David E. Williams
    Jeffrey Becker
    Corporate Audit Response Management




                                              2
Charlottesville Processing and Distribution                                                     NO-AR-10-008
 Facility Consolidation


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in First-Class Mail® (FCM) volume over the past decade. Mail
volume declined by more than 25 billion pieces during 2009, resulting in a net loss of
$3.8 billion. In the first half of fiscal year (FY) 2010, the volume declined by
approximately 6 billion pieces, leading to a net loss of $1.9 billion.

Although the Postal Service reduced expenses by nearly $6 billion in FY 2009 and by
almost $1.4 billion during the first half of FY 2010, it has not been sufficient to fully offset
the decline in mail volume revenue and the rising cost of workers’ compensation and
retirement costs. In testimony before Congress,1 the U.S. Government Accountability
Office (GAO) recommended that the Postal Service take urgent action to streamline the
mail processing and retail networks, as it no longer has sufficient revenue to cover the
cost of maintaining its large network of processing and retail facilities. The GAO also
stated it was necessary for the Postal Service to consider whether it was cost-effective
to retain underutilized facilities and to take action to right-size its network.

Title 39, U.S.C. Part 1, Chapter 1, §101, states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L.109-435-December 20,
2006, Title II, highlights “. . .the need for the Postal Service to increase its efficiency and
reduce its costs, including infrastructure costs, to help maintain high quality, affordable
postal services. . . .”

This report responds to a request from a Congressional Representative of Virginia’s 5th
District to examine consolidation of the Charlottesville P&DF into the Richmond P&DC.
Congressional concerns included whether or not the proposal will yield substantial
savings and continued quality of service.

The Charlottesville P&DF AMP (ZIP Codes 228, 229, 244) proposal involves
consolidating both originating and destinating mail processing operations into the
Richmond P&DC (ZIP Codes 224, 225, 230-232, 238-239). The Richmond P&DC is a
new state-of-the-art facility equipped with the latest mail sorting technology and was
activated on October 1, 2009. Both facilities are in the Capital Metro Area (see Map 1
below) and are approximately 92 miles from each other. The average daily volume for
the Charlottesville P&DF was 1,070,696 pieces.



1
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.




                                                      3
Charlottesville Processing and Distribution                                                      NO-AR-10-008
 Facility Consolidation



                    Map 1: Districts with ZIPs in the Capital Metro Area



                                                                                   Capital Metro Area
                                                          Baltimore
                                                                             210-212,        FY 2010
                                                                             214-219
                                              Northern Virginia
                                                      201, 220-223,
                                                        226, 227 Capital
                                                                                  200, 202-209




                                                              Richmond
                                                                224, 225,
                                                              228-239, 244




                                                 Greensboro
                                                 270-279, 286




                                                       Mid-Carolinas
                                                              280-285,
                                                              287-289, 297



                                Greater So Carolina
                                       290-296




OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess operational impacts of the proposed consolidation and
determine whether the Postal Service followed established AMP policies and guidelines.
We evaluated efficiency gains, capacity, impact on employees, customer service,
transportation, cost savings, and the AMP process.

We reviewed historical data for the Charlottesville P&DF and the Richmond P&DC. We
examined data for FYs 2008 and 2009 (July 1, 2008 through June 30, 2009) to confirm
information on the AMP worksheets. Additionally, we visited both facilities to conduct




                                                          4
Charlottesville Processing and Distribution                                 NO-AR-10-008
 Facility Consolidation


observations during the week of June 14, 2010. The Charlottesville P&DF AMP had
been implemented on June 1, 2010 and all mail processing operations were being
conducted at the Richmond P&DC. We interviewed Postal Service officials and
employees and reviewed applicable guidelines, including Handbook PO-408.

We used computer-processed data from the following systems to analyze workhours,
mail volume, staffing, service, transportation, and maintenance:

       Activity-Based Costing
       Enterprise Data Warehouse
       Service Standard Directory
       Web Complement Information System

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about it and determined the data were sufficiently reliable for the
purposes of this report.

We conducted this performance audit from April through August 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on June 23, 2010 and included
their comments where appropriate.




                                              5
Charlottesville Processing and Distribution                                               NO-AR-10-008
 Facility Consolidation


PRIOR AUDIT COVERAGE

                                                Final                   Report Results
                             Report            Report
   Report Title              Number             Date
Area Mail Processing      EN-AR-09-001        02/04/2009   The Postal Service improved communication
Communication                                              and management has generally addressed
                                                           prior audit recommendations. We
                                                           recommended several methods of further
                                                           increasing stakeholder notification, including
                                                           exploring electronic methods. Management
                                                           agreed with our recommendation to add
                                                           employee input notifications, but disagreed
                                                           with our recommendation to explore
                                                           additional communication channels.
Canton Processing         NO-AR-09-11         09/22/2009   It was a prudent decision to consolidate the
and Distribution                                           Canton P&DF’s outgoing mail processing
Facility Outgoing                                          operation into the Akron P&DC. We made
Mail Processing                                            no recommendations.
Operation
Consolidation
New Castle                NO-AR-10-002        02/01/2010   It was a prudent decision to consolidate the
Processing and                                             New Castle P&DF outgoing mail processing
Distribution Facility                                      operations into the Pittsburgh P&DC. The
Outgoing Mail                                              Postal Service could save more than $1.8
Processing                                                 million annually. We made no
Operation                                                  recommendations.
Consolidation
Lakeland Processing       EN-AR-10-004        02-12-2010   There was a valid business case for the
and Distribution                                           consolidation. It will increase efficiency,
Center Consolidation                                       reduce processing costs, and improve
                                                           service. We made no recommendations.
Dallas Processing         NO-AR-10-003        02/24/2010   A business case existed to support the
and Distribution                                           consolidation. There was capacity, the
Center Outgoing Mail                                       potential to improve customer service and
Consolidation                                              efficiency, impact a limited number of
                                                           employees, and the Postal Service could
                                                           save $114 million over a 10-year period.
                                                           Management agreed with all of our
                                                           recommendations.




                                                   6
Charlottesville Processing and Distribution                                                        NO-AR-10-008
 Facility Consolidation



                                APPENDIX B: DETAILED ANALYSIS

Efficiency Gains

Efficiency should improve as a result of the proposed consolidation. Specifically:

       Since the Richmond P&DC’s new building activation, which occurred October 1,
        2009, the Richmond District has improved their productivity performance. For the
        first three quarters of FY 2010, First-Handled Piece (FHP) productivity2 increased
        from 846 to 878 pieces per hour, compared to the same period the previous year.
        This increase in productivity represented an improvement of 4 percent.

       The increase in mail volume at the Richmond P&DC due to the consolidation
        should result in a productivity gain of 14 percent, increasing the Richmond
        P&DC’s FHP productivity to 970 pieces per hour.3

       Breakthrough Productivity Initiative (BPI) performance at the Richmond P&DC is
        also projected to continue to improve. The Richmond P&DC has increased its
        overall BPI by close to 6 percent from FY 2008 to FY 2009.

Capacity

Adequate capacity exists at the Richmond P&DC to process the additional mail volume
proposed in the Charlottesville P&DF AMP. The increase in mail volume at the
Richmond P&DC would be 25 percent, or approximately 332 million FHP.4 Our analysis
showed that the Richmond P&DC has the capacity to process 480 million additional
pieces on its existing machinery, which is more than sufficient to handle the increased
volume. In addition, the Richmond P&DC has acquired the following machinery due to
the consolidation:

       Two additional Advanced Facer Canceller Systems (AFCS) to process
        Charlottesville’s daily collection volume.

       Six additional Delivery Barcode Sorters (DBCS) to process Charlottesville’s
        incoming volumes.

       One Delivery Input Output Subsystem (DIOSS) to process Charlottesville’s
        outgoing volume.



2
  First-Handled Piece volume divided by number of workhours.
3
  We based this calculation on the transfer of 89 Function 1 employees and moving mail volumes from the
Charlottesville P&DF to the Richmond P&DC.
4
  A letter, flat or parcel that receives its initial distribution at a Postal Service facility.




                                                        7
Charlottesville Processing and Distribution                                          NO-AR-10-008
 Facility Consolidation


We also found adequate floor space is available to accommodate additional machinery
at the Richmond P&DC.

Employee Impacts

The consolidation of Charlottesville P&DF mail processing operations into the Richmond
P&DC will require management to reassign all 156 craft positions and 16 management
positions from the Charlottesville P&DF. Specifically:

       99 craft positions and five management positions are scheduled to be reassigned
        to the Richmond P&DC

       57 craft positions and 11 management positions are scheduled to be transferred
        to local facilities within the Capital Metro Area

       No full-time employee will lose their job.

       Some employees will be entitled to relocation benefits. It is estimated that it will
        cost approximately $890,922 for employee relocation.

Table 1 below shows each facility’s staffing before and after the AMP.

                                 Table 1: Complement Changes
                                   Charlottesville P&DF Complement
                                       Before AMP          After AMP        Difference
    Clerks                                    84                0               (84)
    Mailhandlers                              33                0               (33)
    Maintenance                               35                0               (35)
    EAS                                       16                0               (16)
    Other                                      4                0               (4)
    Totals                                    172               0              (172)
                                         Richmond Complement
                                       Before AMP          After AMP        Difference
    Clerks                                    477              535              58
    Mailhandlers                              379              410              31
    Maintenance                               192              202              10
    EAS                                       64                69               5
    Other                                     20                20               0
    Totals                                1,132                1,236            104

Management followed procedures outlined in the national agreements between the
Postal Service and the impacted unions, including notifying unions and employees.




                                                    8
Charlottesville Processing and Distribution                                                             NO-AR-10-008
 Facility Consolidation



Customer Service

External First-Class Measurement (EXFC)5 scores for Charlottesville and Richmond
have been comparable to national performance. EXFC began measuring the
Charlottesville P&DF at the beginning of FY 2009. For the last three quarters covered
by the AMP package, the Richmond P&DC has shown improvement in all three
categories of EXFC testing. Generally, the Richmond P&DC has performed above
national averages and higher than the Charlottesville P&DF. See Table 2 for
comparison.

                                          Table 2: Service Scores

                                                      Overnight
                            FY2008 QTR 4           FY 2009 QTR 1           FY 2009 QTR 2          FY 2009 QTR 3
    Charlottesville               0.00                  95.71                   97.64                   97.43
    Richmond                     97.56                  96.33                   96.42                   96.66
    National                     96.67                  95.76                   96.31                   96.37

                                                      Two Day
                            FY2008 QTR 4           FY 2009 QTR 1           FY 2009 QTR 2          FY 2009 QTR 3
    Charlottesville               0.00                  87.80                   86.09                   91.66
    Richmond                     93.22                  91.51                   93.01                   94.78
    National                     94.19                  92.03                   93.31                   94.59

                                                     Three Day
                            FY2008 QTR 4           FY 2009 QTR 1           FY 2009 QTR 2          FY 2009 QTR 3
    Charlottesville               0.00                  84.87                   85.30                   91.01
    Richmond                     92.83                  89.21                   91.81                   93.61
    National                     92.93                  85.75                   91.07                   93.16

The number of net service delivery standards6 will improve for all categories of mail
which would effectively increase service. Specifically, there are a total of 212 upgrades
and eight downgrades associated with Priority Mail and First Class Mail delivery. Table
3 shows the number of service standard changes by class of mail.




5
  A test an independent contractor performs to measure the time it takes mail to go from mailbox to delivery.
6
  An expectation of the Postal Service to deliver a mailpiece to its destination within a prescribed number of days
following proper deposit by a customer.




                                                           9
Charlottesville Processing and Distribution                                                                 NO-AR-10-008
 Facility Consolidation



                                     Table 3: Service Standard Impacts

                                       Upgrades                   Downgrades                 Net Change
           Priority                            136                                 (7)                 129
           FCM                                  76                                 (1)                  75
           Periodicals                       1,075                                (56)               1,019
           Standard                          2,775                                 (9)               2,766
           Packages                             39                                 (0)                  39
           Totals                            4,101                                (73)               4,028

Additionally, there will be no changes to local mail box collection times or business mail
entry unit operations as a result of the consolidation. Although most mail will now
receive the Richmond postmark, the Charlottesville postmark will remain available at
retail units in Charlottesville Post Offices upon request.

Transportation

Management will modify existing transportation schedules, which will have no negative
impact on operations. Although the Richmond P&DC is approximately 92 miles from the
Charlottesville P&DF, highway contract routes (HCR) will be used to support the
consolidation. The HCR schedules will allow the Charlottesville P&DF’s mail to arrive at
the Richmond P&DC and return with no changes in the number of collection points,
times or the location of retail offices in Charlottesville. The modified transportation costs
associated with the consolidation are projected to result in a annual increase in costs of
$613,359.

Cost Savings

The Capital Metro District projects a net savings of $6.46 million7 annually, including a
reduction of $3.9 million in processing costs and $2.16 million in maintenance costs as
a result of closing the Charlottesville P&DF. The cost savings from the consolidation will
primarily result from a reduction in workhours, offset by costs associated with the
closure of the Charlottesville P&DF. In the Charlottesville P&DF AMP proposal, the
Postal Service calculated cost savings using standard AMP worksheets. We reviewed
the Postal Service’s AMP worksheets for accuracy and completeness and generally
agreed with their calculations.

The workhour reduction of 57 craft and 11 management employees will result in a
savings of $7,068,750 annually. In order to move all volume from the Charlottesville
P&DF to the Richmond P&DC, the Postal Service will sustain a transportation cost
increase of $613,359 annually. There are three additional one-time costs that the Postal
Service will incur during the first year of the consolidation:

7
    The $6.46 million net savings will occur after the first year and does not include the sale of the Charlottesville P&DF.




                                                             10
Charlottesville Processing and Distribution                                   NO-AR-10-008
 Facility Consolidation



       Employee Relocation – The cost to relocate employees that meet eligibility
        requirements as outlined by the union contract, to new job assignments.

       Equipment Relocation – The cost of relocating additional mail processing
        equipment to the Richmond P&DC to support the consolidation.

       Facility Cost – The cost associated with preparing the Charlottesville P&DF for
        sale.

Specific details of the costs and savings can be found in Table 4 below:




                                              11
Charlottesville Processing and Distribution                                                   NO-AR-10-008
 Facility Consolidation


                                Table 4: Cost Savings Breakdown

                                                                First-Year          Annual
                                                                 Savings            Savings
            Mail Processing Craft Workhours                     $3,914,559        $3,914,559

            Non-Mail Processing Craft Workhours                  $342,641          $342,641
            PCES/EAS8 Savings                                    $656,243          $656,243
            Transportation                                      ($613,359)         ($613,359)
            Maintenance                                         $2,155,307        $2,155,307
            Employee Relocation *                               ($890,922)
            Equipment Relocation *                              ($325,423)
            Facility Costs *                                    ($432,469)
            Total Cost Savings                                  $4,806,577        $6,455,391

           *One‐Time Costs 

Our analysis determined that these estimates were reasonable; however actual savings
will not be known until 1 year after implementation and should be assessed as part of
the AMP Post-Implementation Review phase.

AMP Process

Notice of initiation of the feasibility study involving Charlottesville P&DF, completion of
the study, and approval of the consolidation was generally performed in accordance
with AMP guidelines and the AMP Communications Plan. Specifically:

       Upon deciding to undertake the feasibility study the Postal Service notified
        employees (through Newsbreaks and service talks), local union officials, National
        Unions and Management Associations, local state congressional offices, and
        local media. This was the first step in soliciting public comments.

       Upon completing the feasibility study and submitting it to the area vice president
        for consideration, a public meeting was held to explain the consolidation proposal
        and its findings and address public and employee concerns.

       Concerns and comments were included with the transmittal of information to the
        area vice president for consideration. As Table 5 shows, the timeline of events


8
 Postal Career and Executive Service (PCES) and Executive and Administrative Schedules (EAS) are management
employees.




                                                    12
Charlottesville Processing and Distribution                                                       NO-AR-10-008
 Facility Consolidation


        supports that the process was inclusive and provided stakeholders a forum to
        voice concerns for consideration by the Postal Service.

                                      Table 5: Timeline of Events

                                                                              In Compliance
                                                                             with Handbook
                   Timeline for Public Transparency                          PO-408 and the
                                                                             Communication
                                                                                   Plan
            Notified AVP of intent to conduct a feasibility                        Yes
            study.
            Notified stakeholders of the intent to proceed                           Yes
            with study.
            Completed feasibility study within 2 months of                           No9
            the notification of intent to conduct the study.
            Area and Headquarters reviewed the                                       Yes
            feasibility during the 2-month period.
            District manager completed feasibility study                             Yes
            and submitted it to area vice president.
            District held public meeting within 45 days                              Yes
            after AVP informed Headquarters SVP
            Operations of study.
            Gave the public 15 additional days to provide                            Yes
            written comments.
            Consumer Affairs summarized information                                  Yes
            from oral and written comments.
            Public comments were provided to senior vice                             Yes
            president, Operations, for final review.
            Notified stakeholders of final decision.                                 Yes




9
 The actual feasibility study was completed in 86 days rather than 2 months due to the Richmond P&DC activation
and Christmas holiday volume planning. This was not a significant issue in the overall timeframe of the
consolidation.




                                                       13
